            SALT LAKE DISTRICT OFFICE
              Limited Audit of Financial and Administrative Controls


                                      INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and
administrative internal controls of the Salt Lake District Office (SLDO) in
Salt Lake City, UT. The audit procedures were limited to interviews of
SLDO staff, reviewing supporting documentation, and conducting tests of
selected transactions. The purpose of the audit was to provide the
Commission with negative assurance that the internal controls were
adequate, being implemented economically and efficiently, and in compliance
with Commission policies and procedures. 1
We performed the audit in accordance with generally accepted government
auditing standards during September 2004.


                                       BACKGROUND
The SLDO assists the Central Regional Office in Denver, CO in carrying out
the Commission's programs in Arkansas, Colorado, Kansas, Nebraska, New
Mexico, North Dakota, Oklahoma, South Dakota, Texas, Utah and Wyoming.
In carrying out its responsibilities, the SLDO exercises a broad range of
financial and administrative functions, including maintaining time and
attendance records; procuring supplies and services; arranging for staff
travel; maintaining an inventory of property; and recording budgeted and
actual expenditures of the office.



                                     AUDIT RESULTS
During the limited audit described above, no material weaknesses in the
SLDO’s financial and administrative controls came to our attention. We
discussed several non-material control weaknesses with the SLDO’s
management. The SLDO concurred with these findings and is implementing
our recommendations.

1
    Negative assurance means that no material internal control weaknesses came to our attention during our
    limited audit.



          S AL T L AK E D I S T R I C T O F F I C E ( AU D I T 3 9 7 )            DECEMBER 2, 2004
